Audit Report




OIG-09-013
SAFETY AND SOUNDNESS: Material Loss Review of ANB
Financial, National Association
November 25, 2008




Office of
Inspector General
Department of the Treasury
Contents

Audit Report...............................................................................................          1

    Results in Brief..........................................................................................       2

    Causes of ANB’s Failure .............................................................................           3
      Aggressive Growth ...............................................................................             3
      Inadequate Controls ……………………………………………………………….....                                                             6
      Heavy Reliance on Wholesale Funding to Fuel Growth ……….....................                                   7
      High Concentration of CRE Loans ……………………………………………… ....                                                       9
      Unsound Credit Underwriting and Administration ……………………………....                                               11

    OCC’s Supervision of ANB .........................................................................             13
      Forceful Action Not Taken in a Timely Manner to Address ANB’s Problems .                                     14
      Prompt Corrective Action Used Appropriately...........................................                       23
      OCC’s Guidance on Brokered Deposits Was General .................................                            24
      After Supervision of ANB Transferred to OCC’s Special Supervision Division,
      Actions Taken Were Appropriate But Ultimately Unable to Prevent ANB’s
      Failure .................................................................................................    25
      Other Matter – Lessons-Learned Reviews ................................................                      26

    Recommendations .....................................................................................          27

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                   31
    Appendix     2:      Background........................................................................        34
    Appendix     3:      Glossary ............................................................................     38
    Appendix     4:      Chronology of Significant Events ..........................................               42
    Appendix     5:      OCC ANB Examinations and Enforcement Actions .................                            48
    Appendix     6:      Management Response .......................................................               53
    Appendix     7:      Major Contributors to This Report .........................................               55
    Appendix     8:      Report Distribution..............................................................         56

Abbreviations

    ANB                  ANB Financial, National Association
    CRE                  commercial real estate
    CRP                  capital restoration plan
    FDIC                 Federal Deposit Insurance Corporation


                         Material Loss Review of ANB Financial, National Association                             Page i
                         (OIG-09-013)
Federal Reserve       Board of Governors of the Federal Reserve System
FHLB                  Federal Home Loan Bank
FMFIA                 Federal Managers’ Financial Integrity Act
IT                    information technology
JAMES                 Joint Audit Management Enterprise System
LPO                   loan production office
OCC                   Office of the Comptroller of the Currency
OIG                   Department of the Treasury Office of Inspector General
PCA                   prompt corrective action
ROE                   report of examination




                  Material Loss Review of ANB Financial, National Association   Page ii
                  (OIG-09-013)
                                                                                Audit
OIG
The Department of the Treasury
                                                                                Report
Office of Inspector General




                  November 25, 2008

                  Mr. John C. Dugan
                  Comptroller of the Currency

                  This report presents the results of our review of the failure of ANB
                  Financial, National Association (ANB), of Bentonville, Arkansas, and
                  of the Office of the Comptroller of the Currency’s (OCC)
                  supervision of the institution. Our review was mandated under
                  section 38(k) of the Federal Deposit Insurance Act, as amended.
                  OCC closed ANB and appointed the Federal Deposit Insurance
                  Corporation (FDIC) as receiver on May 9, 2008. At that time, FDIC
                  estimated that ANB’s failure would cost the Deposit Insurance
                  Fund $214 million.

                  Section 38(k) requires that we determine why ANB’s problems
                  resulted in a material loss to the insurance fund; review OCC’s
                  supervision of ANB, including implementation of the prompt
                  corrective action (PCA) provisions of section 38(k); and make
                  recommendations for preventing any such loss in the future. We
                  reviewed the supervisory files and interviewed key officials
                  involved in the regulatory enforcement matters. We conducted our
                  fieldwork from May through October 2008 at OCC’s headquarters
                  in Washington, D.C.; OCC’s district office in Denver, Colorado;
                  OCC’s field office in Kansas City, Kansas; and FDIC’s Division of
                  Supervision and Consumer Protection and Division of Resolutions
                  and Receiverships in Dallas, Texas.

                  Appendix 1 contains a more detailed description of our objectives,
                  scope, and methodology. Appendix 2 contains background
                  information on ANB and OCC’s bank supervision processes. We
                  also provide a glossary as Appendix 3. The terms are underlined
                  and hyperlinked to the glossary where first used in the report. A
                  chronology of significant events related to ANB and supervision of
                  the bank is provided in Appendix 4.


                  Material Loss Review of ANB Financial, National Association       Page 1
                  (OIG-09-013)
Results in Brief
               The primary causes of ANB’s failure were the bank’s strategy of
               aggressive growth without adequate controls; heavy reliance on
               wholesale funding, including brokered deposits; inadequate risk
               management of credit concentrations in commercial real estate,
               and unsound underwriting practices. These deficiencies were
               exacerbated by unfavorable economic conditions.

               OCC conducted timely and regular examinations of ANB and
               provided oversight through its off-site monitoring. In addition, OCC
               appropriately used its authority under PCA. Also, OCC’s Special
               Supervision Division took appropriate supervisory actions after
               oversight of ANB was transferred to it. However, as discussed
               below, we believe that OCC did not issue a formal enforcement
               action in a timely manner, and was not aggressive enough in the
               supervision of ANB in light of the bank’s rapid growth, high
               concentrations in commercial real estate (CRE) loans, reliance on
               brokered deposits, and weak credit risk management practices.
               OCC identified most of ANB’s problems in 2005; however, it took
               no forceful action until 2007.

               In addition, we noted that OCC’s guidance and examination
               procedures related to bank use of wholesale funding, including
               brokered deposits and other non-retail deposit funding sources, is
               general. According to OCC officials, OCC initiated a lessons-learned
               review of the ANB failure. While it had done such reviews in the
               past, OCC did not have a formal policy for conducting lessons-
               learned reviews of bank failures when conditions warrant.

               We are recommending that OCC (1) re-emphasize to examiners
               that examiners must investigate closely an institution’s
               circumstances and alter supervisory plans, if certain circumstances
               exist as specified in OCC guidance, (2) re-emphasize to examiners
               that formal enforcement action is presumed warranted when
               certain circumstances exist and to document the reason for not
               taking formal enforcement action, (3) reassess guidance and
               examination procedures in the Comptroller’s Handbook related to
               bank use of wholesale funding with a focus on heavy reliance on
               brokered deposits and other non-retail deposit funding sources for

               Material Loss Review of ANB Financial, National Association    Page 2
               (OIG-09-013)
             growth, and (4) establish in policy a “lessons-learned” process to
             assess the causes of bank failures and the supervision exercised
             over the institution and to take appropriate action to address any
             significant weaknesses or concerns identified.

             In a written response, OCC agreed that, in the case of ANB, there
             were shortcomings in its execution of its supervisory process and
             that it was appropriate to take additional measures to reinforce
             these principles to OCC examining staff. The steps taken and
             planned as outlined in OCC’s response are generally responsive to
             our recommendations, although we believe additional action is
             needed to institutionalize the lessons-learned process. The
             response also did not identify estimated dates for completing
             planned actions, which OCC will need to develop and record in the
             Joint Audit Management Enterprise System (JAMES), the
             Department of the Treasury’s audit recommendation tracking
             system. OCC’s response and our evaluation are discussed in more
             detail in the Recommendations section of this report. The response
             is provided as Appendix 6.


Causes of ANB’s Failure
             Aggressive Growth

             Beginning in 2004, ANB embarked on a strategy of aggressive
             growth. From the end of 2003 to the end of 2007, the bank’s total
             assets grew fourfold from about $500 million to nearly $1.95
             billion. Management achieved this asset growth principally through
             originations of CRE loans, including loans originated through out-of-
             state loan production offices (LPOs) located in Utah, Wyoming, and
             Idaho. This aggressive growth strategy resulted in a 27 percent
             increase in its total assets in 2004, a 53 percent increase in 2005,
             a 70 percent increase in 2006, and an 18 percent increase in
             2007. The following chart illustrates ANB’s asset growth from
             December 31, 2003, through March 31, 2008:




             Material Loss Review of ANB Financial, National Association     Page 3
             (OIG-09-013)
                                    Chart 1. ANB Asset Growth, 2003 to 2008 (in millions)*

               $2,000
                                                                                           $1,944
                                                                                                             $1,896



                                                                           $1,646

               $1,500




               $1,000
                                                            $966




                                             $631

                $500         $498




                  $0
                          2003            2004           2005           2006           2007            2008



                        Asset amounts as of December 31 of each year, except 2008, which is as of March 31
                        Source: OIG analysis

                        Although ANB had projected an 8 percent growth rate for 2004,
                        the actual rate—27 percent—strained staffing levels and caused
                        controls to lapse. As discussed further below, such lapses
                        included, but were not limited to, the lack of uniform or centralized
                        loan processing procedures, no senior loan officer with sufficient
                        authority to ensure the safe and sound operation of the bank, and
                        inadequate strategic and capital plans. Inadequate controls led to
                        the bank’s failure to obtain appraisals before funding one real
                        estate transaction in the amount of $6.2 million as required by
                        federal banking regulations, 1 failure to document evaluations by an
                        independent bank officer for real estate transactions below
                        $250,000, and issuance of real estate loans with no initial
                        borrower equity.



1
  12 C.F.R. 34.43 requires an appraisal by a state certified or licensed appraiser for all real estate
transactions greater than $250,000. For transactions less than $250,000, an evaluation by an internal
officer independent of the transaction is sufficient. The examiners noted appraisals were not obtained
for the purchase of various tracks of land under one real estate transaction during the 2005
examination. The violation was corrected during the examination—ANB obtained the necessary
appraisals.

                        Material Loss Review of ANB Financial, National Association                                   Page 4
                        (OIG-09-013)
                       For 2005, ANB management projected an asset growth rate of
                       15 percent. The actual rate, however, was 53 percent, which
                       reflected management’s focus on increasing issuances of CRE
                       loans, including loans issued through out-of-state LPOs. ANB
                       opened its first LPO in St. George, Utah, in January 2005, and its
                       second in Jackson, Wyoming, in May 2005. ANB opened a third
                       LPO in Idaho Falls, Idaho, in May 2007. From January 2005 to
                       December 2007, the bank’s real estate loan portfolio increased
                       from $440 million to $1.6 billion and its construction and
                       development loans increased from 22 percent to 73 percent of
                       gross loans during the same time period. By March 2008,
                       approximately 63 percent of ANB’s loan portfolio was originated
                       through the Utah, Idaho, and Wyoming LPOs.

                       Beginning in 2005 and throughout the remainder of its existence,
                       ANB experienced continuous deterioration in asset quality because
                       its credit risk management systems did not keep pace with its rapid
                       growth. For example, loan losses recognized in 2005 were the
                       highest in the bank’s history and nonperforming loans were twice
                       the national average for banks of ANB’s size and characteristics. In
                       addition, by June 2007 adversely classified assets represented
                       109 percent of capital, and ANB’s 2007, net after-tax losses
                       amounted to $120.4 million.

                       ANB’s volume of problem assets continued to increase significantly
                       as ANB’s board and management pursued aggressive growth that
                       increased the bank’s concentration in CRE loans without adequate
                       systems and controls for managing credit risk, safe and sound loan
                       underwriting, and adequate staffing. The board took these actions
                       despite being told by OCC examiners in the 2006 examination that
                       the board needed to refocus its attention on ANB’s risk
                       management program, including compensation practices, and
                       reinforce risk controls and monitoring.2




2
  ANB’s compensation practices included compensating officers based on the volume of new loans
presented for approval regardless of the loans’ quality. OCC, in its February 2007 report of examination
(ROE), highlighted ANB’s need to ensure that compensation practices consider loan quality, prudent
underwriting, and ongoing supervision of an officer’s loan portfolio.

                       Material Loss Review of ANB Financial, National Association                Page 5
                       (OIG-09-013)
                       Inadequate Controls

                       As it aggressively grew, ANB did not implement commensurate
                       internal controls. As OCC identified and reported deficiencies, the
                       bank did not correct them in a timely manner. These deficiencies
                       are described below.

                       Lack of Uniform Loan Processing Procedures for LPOs

                       ANB had no uniform or centralized loan processing procedures to
                       be followed by its LPOs. The lack of standardized procedures
                       resulted in inconsistent application of loan approval and loan
                       administration standards. For example, according to internal ANB
                       documents, there were instances where construction and
                       development loan disbursements were made at one of the LPOs
                       based on draw requests with overstated completion percentages.3
                       In these instances, the loan officer did not conduct an on-site
                       inspection of the development project before the disbursements
                       were made.

                       No Senior Loan Officer Until 2007

                       Despite the growth of its assets to more than $1.6 billion by the
                       end of 2006, ANB did not hire a senior loan officer until after OCC
                       required it in a formal agreement issued in June 2007. By then, the
                       adverse effects of ANB’s previous unsound credit risk management
                       practices could not be overcome. A qualified senior loan officer
                       typically supervises the loan portfolio and installs systems to
                       control credit risk.

                       Inadequate Strategic and Capital Plans

                       ANB management failed to adopt long-range/comprehensive
                       strategic and capital plans. Although ANB had a strategic planning
                       process, the plans produced were inadequate given the bank’s risk
                       profile and growth. ANB’s strategic planning process did not
                       establish objectives based on such factors as the bank’s overall risk
                       profile, earnings performance, growth, capital adequacy, and

3
 After a bank approves a construction and development loan, it disburses funds incrementally. A
borrower submits a draw request (an application requesting a disbursement of funds) that indicates, as
a percentage, the completion status of the project.

                       Material Loss Review of ANB Financial, National Association               Page 6
                       (OIG-09-013)
             balance sheet mix. It also did not include detailed action plans,
             timetables for accomplishment, and assignment of key
             responsibilities. Further, ANB lacked an adequate capital plan that
             included projections for asset growth, primary sources to rely on to
             strengthen its capital structure, and alternatives to the primary
             sources.

             Heavy Reliance on Wholesale Funding to Fuel Growth

             Due to a highly competitive local banking environment for
             attracting deposits, ANB relied extensively on wholesale funding
             sources, primarily brokered deposits and borrowings from the
             Dallas Federal Home Loan Bank (FHLB) to fuel its growth. The
             following chart shows a comparison of ANB’s brokered deposits to
             its other funding sources.

                   Chart 2. ANB Funding Sources, December 31, 2003, to March 31, 2008 (in millions)


                             Other deposits
$2,000


                             FHLB advances                           $263         $237
                                                                      $33         $33

$ 1, 5 0 0                   Brokered deposits          $233


                                                        $279

$ 1, 0 0 0

                                                                     $1,596      $1,579
                                              $263


                                              $223      $981
  $500                        $249
                 $224
                              $168
                                              $395
                 $150
                              $163
                 $78
      $0
               2003         2004         2005         2006          2007        2008



Source: OIG analysis of OCC reports of examination (ROEs) of ANB.


             ANB’s liquidity sources were heavily concentrated in brokered
             deposits, which management acquired from several different
             brokers. Brokered deposits are generally highly interest-rate
             sensitive and therefore less stable as a deposit source than retail
             deposits. ANB mitigated this risk somewhat through such measures
             as obtaining the longest terms possible, requiring brokers to bid
             against one another for brokered certificates of deposit contracts,
             and obtaining options to call the funding in a declining rate

             Material Loss Review of ANB Financial, National Association                         Page 7
             (OIG-09-013)
environment. ANB’s brokered deposits reached $981 million in
2006. This amount made up 65 percent of ANB’s funding base in
2006, an increase from 45 percent in 2005. OCC examiners
determined that ANB’s liquidity was adequate but that its liquidity
risk was high. The examiners projected that reduced loan growth,
as promised by ANB’s management, would likely stabilize the
liquidity risk. In the 2006 examination, the examiners concluded
that ANB’s management had the expertise to monitor and control
ANB’s wholesale funding and put in place a process for adequate
short- and medium-term liquidity.

During the 2007 examination, OCC examiners found that a funding
strategy that relied heavily on brokered deposits had been
reasonable when ANB had satisfactory credit quality but that such
reliance was no longer appropriate, especially as it deployed
brokered deposits into a high-risk CRE concentration. The
examiners also determined that ANB’s capital levels were not
satisfactory in light of ANB’s overall deteriorating conditions.
Although ANB’s capital ratios reflected the well-capitalized
category for PCA purposes, OCC downgraded ANB’s capital level
to adequately capitalized as a result of the formal agreement issued
in June 2007.

The Federal Deposit Insurance Corporation Improvement Act
requires that acceptance of brokered deposits can only be made by
well-capitalized institutions that exceed the minimum PCA
requirements. Therefore, when ANB fell below the well-capitalized
threshold additional brokered deposits were no longer available to it
as a funding source. ANB’s contingency funding plan failed to
identify alternatives to brokered deposits, and FHLB restricted its
borrowings in September 2007 because of the bank’s worsening
financial condition.

By March 31, 2008, ANB’s brokered deposits totaled about
$1.58 billion, or 87 percent of total deposits. Using brokered
deposits as a funding source may have been a reasonable strategy
had ANB maintained satisfactory credit quality. However, by 2007,
the bank’s increasing problems with risk management control,
asset quality, and deteriorating capital levels made brokered
deposits inappropriate as a continuing funding source for ANB.



Material Loss Review of ANB Financial, National Association     Page 8
(OIG-09-013)
            High Concentration of CRE Loans

            ANB’s increased issuance of CRE loans led to its rapid growth in
            assets. These loans included construction and development loans
            issued through LPOs in Utah, Idaho, and Wyoming. By March
            2008, loans issued by the three LPOs accounted for approximately
            63 percent of ANB’s loan portfolio. Chart 3 details the growth in
            the share of ANB’s CRE loans, compared to its other loans.


 Chart 3. Distribution of ANB Loans and Leases, 2003-2008 (in millions)



   $2,000




                                                                                $395
   $1,500                                                                                         $373


                                                                $511




   $1,000




                                                 $422                          $1,330             $1,305

                                                                $1,030
    $500

                                 $386
                  $335
                                                 $425

                                 $142
                  $76
       $0
                2003           2004            2005            2006            2007           2008

                            Commercial real estate loans   Other loans and leases



Source: OIG analysis of OCC ROEs of ANB.
Note: Amounts shown for 2008 are as of March 31, 2008. All other amounts are as of December 31.




            Material Loss Review of ANB Financial, National Association                             Page 9
            (OIG-09-013)
                       Financial institutions with high concentrations of CRE loans require
                       strong concentration risk management practices.4 However, while
                       ANB’s board and management established general limits for
                       concentrations for raw land, land development, and home
                       construction lending, they did not develop adequate policies,
                       procedures, and reporting to ensure effective measurement,
                       monitoring, and control of concentration risk. Without clear
                       guidance regarding the level of concentration risk exposure
                       acceptable to the board, management took undue risks and did not
                       respond in an appropriate manner to changes in the market,
                       economy, or borrowers’ circumstances. The board and
                       management were deficient in ensuring ongoing identification of
                       significant concentrations. In this regard, OCC examiners reported
                       in the 2007 ROE that ANB’s CRE portfolio exceeded board-
                       approved concentration limits in Utah and that it reflected
                       management’s lack of adequate control.5 ANB also lacked a
                       uniform, centralized process necessary to support ongoing
                       monitoring of CRE loans.

                       The examiners required, among other things, ANB’s board and
                       management ensure ongoing evaluation of CRE concentrations,
                       formalize support for established concentration limits (including a
                       synopsis of management’s market analysis), aggregate the results
                       of stress testing individual borrowers into the concentration risk
                       summary report, and address underwriting limitations within the
                       loan policy when concentrations approach or exceed limits
                       established by the board.

                       The downturns in the real estate market increased the effects of
                       ANB’s poor concentration risk management of the loan portfolio.
                       As of January 31, 2008, nearly $1.25 billion, or 71 percent, of

4
  OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices, December 6, 2006, states that strong risk management practices and appropriate levels of
capital are essential elements of a sound CRE lending program. The guidance sets forth sound risk
management practices that an institution should employ when it has CRE concentration risk. Credit
concentrations are broadly defined as groups or classes of credit exposures that share common risk
characteristics or sensitivities to economic, financial, or business developments. CRE loans are loans
with risk profiles sensitive to the condition of the general CRE market. The guidance describes sound
risk management practices that will enable institutions to pursue CRE lending in a safe and sound
manner.
5
  ANB’s board approved concentration limit for Utah was 1 percent of total risk-based capital. ANB’s
Concentration of Credit Report dated June 30, 2006, reports the actual concentration as 1.5 percent.

                       Material Loss Review of ANB Financial, National Association               Page 10
                       (OIG-09-013)
ANB’s $1.75 billion in loans were CRE loans, including land
development loans, undeveloped land loans, and residential
construction loans. Of these CRE loans, 39 percent were secured
by properties in Utah; 32 percent by properties in Arkansas; 18
percent by properties in Idaho, Nevada, and California; and the
remaining 11 percent elsewhere. As growth slowed in previously
expanding markets where ANB operated, such as Arkansas and
Utah, demand for housing in those markets decreased. As a result,
by January 31, 2008, ANB had over $827 million in problem loans,
or 445 percent of capital. Of the $827 million in problem loans 92
percent were CRE loans.

Unsound Credit Underwriting and Administration

Deficiencies in ANB’s credit underwriting and administration
process also contributed to its failure. For example, loan
presentation memoranda that OCC reviewed did not formally
document an analysis of risks and mitigating factors inherent in a
credit relationship because loan presentations did not consistently
include sufficient detail of the project plan. In addition, loan files
did not contain periodic updates on the status of development
loans, including whether the development was progressing as
scheduled, any changes in market fundamentals, or whether
sufficient interest carry remained in the budget to complete the
project.

By 2006, the combination of CRE loan concentrations, the
softening of the residential real estate market, and weaknesses in
ANB’s credit risk management practices resulted in deterioration of
ANB’s asset quality and an increase in the volume of adversely
classified and criticized assets. ANB’s need for capital injections in
2005 and its plan to infuse additional capital in 2006 reflected the
inability of earnings to directly support the capital levels necessary
for its growth.

On June 25, 2007, OCC entered into a formal written agreement
with ANB’s board of directors. The agreement addressed
deficiencies identified during the 2007 examination and required
ANB to improve its management, asset quality, and capital levels.
On January 29, 2008, ANB’s holding company and the Board of
Governors of the Federal Reserve System (Federal Reserve) also


Material Loss Review of ANB Financial, National Association      Page 11
(OIG-09-013)
entered into a formal agreement due to the unsatisfactory condition
of the bank. The agreement required the holding company—ANB
Bancshares, Inc.—to submit an acceptable written consolidated
capital plan to the Federal Reserve within 45 days of the
agreement. The holding company was also required to submit an
acceptable written plan for servicing its outstanding debt and other
obligations (for 2008 and 2009) without incurring additional debt.
This formal agreement followed an inspection of ANB Bancshares,
Inc., by the Federal Reserve in September 2007. Based on the
inspection, the Federal Reserve concluded that ANB’s holding
company was highly leveraged, had strained cash flow and
liquidity, and was unable to serve as a source of strength to the
bank during this time of deteriorating asset quality.

As things continued to deteriorate, OCC issued a notice under PCA
that required ANB to submit a capital restoration plan (CRP) by
March 6, 2008. The bank submitted a CRP on that date and later
submitted a supplement to the CRP that proposed the sale of ANB
in its entirety through an investment bank on or before May 5,
2008. However, OCC deemed the CRP unacceptable because it
lacked detailed information about the bank’s proposals, financial
analyses of the proposals, information about the risks to the bank,
and required guarantees from the bank’s holding company.

On May 1, 2008, the bank submitted a partial divestiture plan to
OCC. The plan proposed the sale of eight branches, most of the
branches’ performing loans, and most of ANB’s core retail
deposits. OCC also considered this plan unacceptable because it
did not meet minimum CRP requirements, was not based on
realistic assumptions, was unlikely to succeed in restoring capital,
would likely increase the risks to the bank, and failed to contain an
appropriate guarantee by ANB’s holding company.

With ANB’s earnings and capital continuing to decline and its
failure to sell all or part of the bank, OCC exercised its authority on
May 9, 2008, to close the institution and appointed FDIC as
receiver. At the time of its closure, the estimated loss to the
Deposit Insurance Fund was $214 million.




Material Loss Review of ANB Financial, National Association      Page 12
(OIG-09-013)
OCC’s Supervision of ANB
             OCC conducted timely and regular examinations of ANB and
             provided oversight through its off-site monitoring. In addition, OCC
             appropriately implemented PCA in reclassifying ANB’s capital levels
             and restricting ANB activities. Also, OCC’s Special Supervision
             Division took appropriate supervisory actions after oversight of
             ANB was transferred to it. However, as discussed below, we
             believe that OCC did not issue a formal enforcement action in a
             timely manner, and was not aggressive enough in the supervision
             of ANB when problems first arose in light of the bank’s rapid
             growth, high concentrations in CRE loans, reliance on brokered
             deposits, and weak credit risk management practices. OCC
             identified most of ANB’s problems in 2005; however, it took no
             forceful action until 2007.

             In addition, we noted that OCC’s guidance and examination
             procedures related to bank use of wholesale funding, including
             brokered deposits and other non-retail deposit funding sources, is
             general. According to OCC officials, OCC initiated a lessons-learned
             review of the ANB failure. While it had done such reviews in the
             past, OCC did not have a formal policy for conducting lessons-
             learned reviews of bank failures when conditions warrant.

             Table 1 summarizes the results of OCC’s annual safety and
             soundness examinations from the ROEs starting with the 2004
             examination cycle. Appendix 5 provides details of matters requiring
             attention and other recommended actions in the ROEs.




             Material Loss Review of ANB Financial, National Association   Page 13
             (OIG-09-013)
                  Table 1. Summary of OCC ANB Examinations and Enforcement Actions
                                                         Examination Results
                                               Number
                                               of          Number
                                               matters     of other
          Date          Assets (in CAMELS      requiring   recommended Formal enforcement
          started       millions)  rating      attention6 actions          actions
          1/5/2004              $498    1/211121            0               2           None
          3/9/2005              $631    1/212121            2               5           None
          2/1/2006              $966    2/222221            0               6           None
                                                                                        Formal agreement issued
          2/23/2007          $1,646     3/233221            5               1           6/25/2007
                                                                                        Formal agreement issued
          10/1/2007          $1,944     4/344342            7               1           6/25/2007
                                                                                        Notice of
                                                                                        undercapitalization
          2/5/2008                NA    PCA notice          -               -           issued
                                                                                        Notice of significant
                                                                                        undercapitalization
          2/27/2008               NA    PCA notice          -               -           issued
                                                                                        Notice of critical
                                                                                        undercapitalization
          4/29/2008               NA    PCA notice          -               -           issued
              Source: OCC ROEs and ANB call reports




                          Forceful Action Not Taken in a Timely Manner to Address ANB’s
                          Problems

                          2005 Examination Identified Significant Problems at ANB But the
                          Bank Received Highest Rating

                          ANB’s problems first surfaced in 2005 with its pursuit of
                          aggressive loan growth without commensurate controls and risk
                          management practices. OCC reported in the 2005 ROE that
                          management was pursuing an aggressive growth strategy, as
                          evidenced by a 27 percent increase in total assets from year-end
                          2003 to year-end 2004.7 In particular, examiners noted that ANB
                          significantly increased its total outstanding loans through CRE
                          loans originated at its LPO office in Utah. The examiners also noted

6
 Matters requiring attention identified in OCC ROEs are not enforcement actions. However, failure by a
bank’s board and management to address the matters could lead to an enforcement action.
7
    Financial information in the 2005 ROE was as of December 31, 2004.

                          Material Loss Review of ANB Financial, National Association                   Page 14
                          (OIG-09-013)
                      that the aggressive growth strained ANB’s capital base and
                      increased ANB’s reliance on wholesale funding for liquidity.

                      Furthermore, OCC reported in the 2005 ROE that ANB’s credit risk
                      was increasing because of its aggressive growth strategy,
                      increases in competitive pressures, and the complexity of its
                      operations. OCC further reported that while overall credit risk
                      management remained strong, management needed to address
                      certain practices and credit administration issues that exposed ANB
                      to increased risk and indicated a potential erosion of underwriting
                      standards. OCC also reported increased policy exceptions and
                      specific deficiencies in audit and information technology (IT). In
                      reviewing the documentation of the examiners’ work for this
                      examination, we could not determine how OCC reached these
                      conclusions. Specifically, the examination documentation was
                      insufficient to determine what examination procedures were
                      completed and what support the examiners had for their
                      conclusions.8

                      On June 14, 2005, OCC’s Western District placed ANB on the
                      district’s watch list because of concerns about the bank’s rapid,
                      uncontrolled growth.9 Despite the risky conditions mentioned above
                      and being added to the district’s watch list, OCC’s 2005 ROE
                      contained only two matters requiring attention by ANB. One matter
                      requiring attention advised ANB to strengthen internal controls and
                      oversight to ensure adherence to board-approved policies and
                      prevent violations of federal regulations. The other matter requiring
                      attention advised the bank that during periods of growth it was
                      imperative for the board to ensure that adequate credit
                      administration and IT policies and practices remain in place to
                      minimize potential risk.

                      Despite these concerns and OCC’s downgrading of ANB’s
                      management rating from 1 to 2 due to deficiencies in the audit




8
  In contrast to the 2005 examination, documentation of procedures performed and support for
conclusions reached was much more extensive for the 2004, 2006, and 2007 ROEs.
9
  Each OCC district maintains a watch list of banks that deserve close attention. The weaknesses of
watch list banks are not pervasive enough for them to be designated as problem banks, and watch list
banks are not adversely rated (i.e., their CAMELS composite rating is 1 or 2).

                      Material Loss Review of ANB Financial, National Association             Page 15
                      (OIG-09-013)
                       function and credit administration, 10 it gave the bank a CAMELS
                       composite rating of 1 (the highest rating possible). When we asked
                       the OCC examiner-in-charge for the 2005 examination about why a
                       composite rating of 1 was issued given these conditions, he stated
                       the composite rating of 1 was justified because asset quality and
                       earnings were good and interest rate risk (sensitivity to market risk)
                       was low.11 In this regard, these components of the CAMELS
                       components received a rating of 1 in the 2005 examination.

                       In its watch list dated December 9, 2005, OCC’s Western District
                       again noted its concerns about ANB’s increasing credit risk, given
                       the CRE concentration and increased volume and complexity of
                       ANB’s loan portfolio.

                       2006 Examination Identifies Continuing and Additional Problems
                       But Forceful Action Still Not Taken

                       The combination of the concentration of CRE loans in ANB’s
                       portfolio, the softening of the residential real estate market, and
                       weaknesses in ANB’s credit risk management practices resulted in
                       further problems for ANB in 2006. Based on concerns reported in
                       the 2005 ROE, OCC expanded the scope of its supervisory
                       activities for ANB which included a review of asset quality and
                       expansion of procedures performed in the areas of credit, IT, and
                       compliance. This expansion of scope did not include site visits to
                       the LPOs; however, OCC officials stated that such visits are an
                       option for the examiners. OCC reiterated its concerns about ANB’s
                       rapid growth in the 2006 ROE and reported that while ANB’s
                       capital remained adequate in relation to the risk profile, the bank’s
                       asset quality had deteriorated. ANB’s loan portfolio grew
                       60 percent in 2005, and its total assets as of year-end 2005 were
                       $966 million, a 53 percent increase over year-end 2004.12 OCC
                       examiners also noted that earnings declined in 2005 and by
                       themselves were insufficient to maintain adequate capital levels.

10
   OCC reported that the board‘s efforts to comply with the requirements of 12 C.F.R. §363 needed
improvement, as the board had not formed an independent audit committee. In addition, some 2003
external audit IT recommendations had not been resolved, the disaster recovery plan needed updating,
and additional enhancements were recommended to the information security risk assessment process.
11
   The sensitivity to market risk component reflects the degree to which changes in interest rates,
foreign exchange rates, commodity prices, or equity prices can adversely affect a financial institution’s
earnings or economic capital.
12
   Financial information in the 2006 ROE was as of December 31, 2005.

                       Material Loss Review of ANB Financial, National Association                 Page 16
                       (OIG-09-013)
                     The examiners commented that the need for capital injections in
                     2005 and ANB’s plans for an additional injection in 2006 reflected
                     the inability of ANB’s current earnings to provide for adequate
                     capital through retained earnings.

                     Although OCC examiners deemed ANB’s overall condition and
                     supervision by the board satisfactory, they noted that the bank’s
                     significant concentrations in land development, construction, and
                     raw land loans increased its asset quality risk. By 2005, half of
                     ANB’s loan portfolio was concentrated in construction and land
                     development loans, a 300 percent increase from 2004. In addition,
                     the examiners found a high level of real estate loans that exceeded
                     ANB’s supervisory loan-to-value guidelines. Furthermore, OCC
                     examiners noted that 1.03 percent of ANB’s total loans were
                     nonperforming—twice the national average; the volumes of
                     identified problem assets and criticized loans had increased from
                     $11 million to $15 million and from $3.6 million to $11.3 million,
                     respectively, since the 2005 ROE; and the more than $4.8 million
                     in loan losses recognized by ANB in 2005 were the highest in the
                     bank’s history.

                     ANB remained on OCC’s Western District watch list because of
                     OCC’s continued concerns about the bank’s rapid, uncontrolled
                     growth. However, despite downgrading ANB’s composite, asset
                     quality, and earnings ratings from 1s to 2s and its concerns about
                     the bank’s aggressive growth, concentration in CRE loans, and
                     insufficient earnings retention to maintain adequate capital levels,
                     OCC did not, as a result of the 2006 examination, take formal
                     enforcement action, or include any matters requiring attention in
                     the 2006 ROE.

                     When asked about this, the OCC examiner-in-charge who
                     conducted the 2006 examination commented that in his opinion
                     more aggressive action was not taken because the overall condition
                     of the bank was still considered okay. Additionally, he stated that
                     in his opinion ANB’s management was committed to correcting the
                     problems, OCC did not have a basis to support a recommendation
                     to stop growth, and ANB’s earnings were still good.13


13
   This examiner was in charge of the examinations of ANB conducted in 2003 through 2006. A
different examiner was put in charge of the 2007 examination.

                     Material Loss Review of ANB Financial, National Association              Page 17
                     (OIG-09-013)
                      According to An Examiner’s Guide to Problem Bank Identification,
                      Rehabilitation, and Resolution (OCC Examiner’s Guide), when
                      performing supervisory activities at a bank experiencing rapid
                      growth, examiners must investigate closely the institution’s
                      circumstances and alter supervisory plans if one or more of the
                      following conditions exist:

                        •   Growth varies significantly from the bank’s budget or strategic
                            plan.
                        •   The risk profile is higher than anticipated.
                        •   Bank underwriting and risk selection standards have been
                            revised.
                        •   Minimal or no changes have been made to the bank’s internal
                            control structures.
                        •   Capital levels are declining rapidly.
                        •   Funding sources are unstable or short-term.
                        •   New products and activities are being pursued with little or no
                            expertise or with inadequate risk management controls.
                        •   Growth is influenced heavily by brokered or agent
                            transactions.14

                      Four of these eight conditions clearly existed when OCC conducted
                      the 2006 examination. According to OCC’s 2006 ROE, (1) ANB’s
                      asset growth exceeded original budget projections, (2) its credit
                      risk profile was increasing, (3) the opening of another LPO left
                      ANB’s credit risk management controls in need of enhancement,
                      and (4) its growth was being influenced heavily by the use of
                      brokered deposits.

                      In addition, according to the OCC Policies and Procedures Manual,
                      “Bank Supervision Operations—Enforcement Action Policy,” there
                      is a presumption in favor of formal enforcement action when a
                      bank is experiencing serious problems or weaknesses in its
                      systems, controls, internal audit program, operating policies,
                      methods of operations, or management information systems, even
                      if the problems have not yet resulted in a change of rating or have
                      not been reflected in the bank’s financial performance or
                      condition.15 Nevertheless, OCC did not elevate its supervision of

14
   OCC, An Examiner’s Guide to Problem Bank Identification, Rehabilitation, and Resolution (January
2001), p. 5.
15
   OCC Policies and Procedures Manual (PPM) 5310-3.

                      Material Loss Review of ANB Financial, National Association               Page 18
                      (OIG-09-013)
                        the bank until June 25, 2007, when the formal agreement was
                        issued.

                        On another matter, examiners first expressed concern in 2005 with
                        credit risk management practices that exposed ANB to increased
                        risk and potential erosion of underwriting standards. OCC again
                        advised ANB in the 2006 ROE to strengthen its policies. The credit
                        risk profile of ANB increased to high in 2006 due to the
                        deterioration in the quality of the loan portfolio since the 2005
                        examination. However, as noted earlier, the 2006 ROE contained
                        no matter requiring attention that directed ANB to address
                        weaknesses in its credit risk management policies. Subsequently, in
                        2007, ANB continued to have a credit risk rating of high. OCC
                        examiners wrote, “The lack of robust concentration risk
                        management and credit risk management systems, and an
                        insufficient control structure in advance of aggressive loan growth,
                        reflect weak credit risk management and expose the bank to undue
                        risk.”

                        Given the increasingly deteriorating conditions noted beginning
                        with the 2005 ROE, along with OCC guidance concerning banks
                        experiencing rapid growth,16 and OCC’s enforcement action
                        policy,17 more aggressive supervision and more timely formal
                        enforcement action by OCC were warranted. If OCC had acted
                        more aggressively and sooner, ANB might have acted earlier or
                        differently to address its problems.

                        OCC Took Formal Action Against ANB When 2007 Examination
                        Found Further Deterioration

                        As a result of the 2007 examination, OCC downgraded ANB’s
                        CAMELS composite, asset quality, and management ratings from
                        2s to 3s because of increased credit risk, weaknesses in credit
                        administration and risk controls, aggressive growth (a 70 percent
                        increase in total assets from the prior year), and an increasing
                        concentration in CRE loans (77 percent of ANB’s loan portfolio).
                        OCC’s 2007 ROE for ANB contained the following five matters
                        requiring attention. Specifically, OCC recommended ANB:


16
     OCC Examiner’s Guide, Appendix A, Guidance for Supervising Banks Experiencing Rapid Growth.
17
     OCC Policies and Procedures Manual (PPM) 5310-3.

                        Material Loss Review of ANB Financial, National Association          Page 19
                        (OIG-09-013)
                       1. Hire a senior loan officer.
                       2. Ensure that all underwriting and credit administration practices
                          are commensurate with the level of risk in the loan portfolio.
                       3. Enhance the independence of the real estate appraisal ordering
                          and review process.
                       4. Enhance the bank’s concentration management practices.
                       5. Adopt and implement a strategic plan for all areas of the bank
                          covering at least a 3-year period.

                       In addition, OCC designated ANB in “troubled condition”18 on
                       April 26, 2007, and, as previously noted, entered into a formal
                       agreement with ANB on June 25, 2007, to address ANB’s
                       deficiencies and improve ANB’s management, asset quality, and
                       capital levels. The formal agreement required that ANB appoint a
                       senior loan officer to improve ANB’s overall management; develop
                       a 3-year written action plan for its strategic goals; achieve and
                       maintain certain capital ratios; establish contingency plans; and
                       improve its credit and concentration risk management systems,
                       particularly in connection with CRE loans and appraisals. The
                       formal agreement also limited the financial conditions under which
                       ANB could declare a dividend.

                       On October 1, 2007, OCC began an on-site examination to assess
                       compliance with the formal agreement. OCC expanded the review
                       to a full-scope examination as a result of finding a significant
                       increase in ANB’s credit risk. Examiners found that ANB did not
                       identify problem loans in a timely manner, and that there was a
                       significant increase in the number of problem assets with
                       inaccurate risk ratings. Examiners concluded that ANB had not
                       complied with four of the five requirements in the formal
                       agreement. The examiners also reported that the board’s actions
                       did not reflect sound risk management processes; ANB’s risk
                       management practices in credit, liquidity, and strategic risks were
                       inadequate; and ANB’s system for rating loan risk and reviewing
                       loans was ineffective.




18
  A bank that is designated in “troubled condition” is required to obtain approval from OCC for the
addition or employment of all senior officers and directors.

                       Material Loss Review of ANB Financial, National Association               Page 20
                       (OIG-09-013)
                      OCC Officials Recognized Supervision of ANB Should Have Been
                      More Aggressive

                      OCC’s Western District officials acknowledged by 2007 that
                      supervision of ANB had not been effective. As part of OCC’s
                      Federal Managers’ Financial Integrity Act (FMFIA) process, senior
                      officials provide annual assurance statements to the Comptroller on
                      whether the management controls for their area of responsibility
                      are achieving the intended results, consistent with OCC’s mission
                      and following rules and regulations, and that timely and reliable
                      information is used for decision making.19 In this regard, the Deputy
                      Comptroller of the Western District stated in her fiscal year 2007
                      assurance statement that although OCC had identified ANB’s
                      growth as a concern, it had not addressed risk management
                      deficiencies aggressively enough. The statement also said that
                      supervision of the bank had been elevated, a formal enforcement
                      action had been issued, and the supervisory strategy had been
                      revised. In an interview, the OCC Assistant Deputy Comptroller at
                      the OCC field office responsible for supervision of ANB agreed with
                      this assessment.

                      In an interview, the Deputy Comptroller of the Western District
                      expanded on the 2007 FMFIA Annual Certification Statement by
                      acknowledging that the examiners could have more aggressively
                      supervised ANB during 2005 and 2006. She believed that more
                      matters requiring attention and recommendations, along with a
                      stronger tone, could have been used in the ROEs during those
                      years. She also said if OCC had been more aggressive and ANB
                      management had responded to OCC recommendations, it might
                      have made a difference.

                      Subsequent to the issuance of the certification statement, the OCC
                      Western District: (1) reemphasized to the Assistant Deputy
                      Comptrollers and the staff the importance of aggressively following
                      up on matters requiring attention and ensuring that the banks have
                      strong risk management systems to support high levels of
                      concentrations and/or rapid growth; (2) initiated a review of 13
                      banks in the Western District with significant CRE concentrations
                      to gather information about the quality and trend of underwriting,

 FMFIA requires agencies to perform regular evaluations of management controls and financial
19

management systems to protect against fraud, waste and abuse.

                      Material Loss Review of ANB Financial, National Association              Page 21
                      (OIG-09-013)
                       accuracy of risk ratings, and quality of ongoing monitoring, as well
                       as to form some conclusions about the overall health of several
                       CRE markets across the district; and (3) performed a quality
                       assurance review to determine whether the examiners followed up
                       on prior matters requiring attention.

                       In the review of banks with significant CRE concentrations, OCC’s
                       Western District found (1) asset quality deterioration of varying
                       degrees, (2) initial underwriting and risk selection were generally
                       satisfactory but some underwriting practices caused concern, and
                       (3) CRE risk management systems and processes still needed
                       improvement. According to the Deputy Comptroller of the Western
                       District, the OCC Western District is performing a number of
                       targeted reviews to better quantify the CRE risk, as well as the
                       impact of the slowdown in housing in many markets. In the quality
                       assurance review, OCC Western District found matters requiring
                       attention were (1) usually developed for significant issues, with
                       some exceptions, (2) consistent between the ROE and the OCC
                       examination database, (3) documented with current status for
                       outstanding matters requiring attention, (4) adequately documented
                       in the OCC examination database, and (5) consistent with OCC
                       guidance with some exceptions. The results of this quality
                       assurance review were shared with Western District personnel.

                       We asked the examiner-in-charge during the 2003 through 2006
                       examinations whether there should have been more aggressive
                       action taken by OCC sooner. He stated that by looking back,
                       examiners needed a stronger tool to address concentration limits.
                       In his opinion, concentration limits should be set to 25 percent of
                       capital and that examiners should be given more authority to
                       encourage and set limits. He further stated that an interagency
                       guideline on concentration was issued in December 2006 that gave
                       examiners more authority to provide guidance to the bank
                       regarding concentration limits.20


20
   OCC, Federal Reserve and FDIC issued joint guidance on concentrations in CRE lending in December
2006 – Guidance on Concentrations in Commercial Real Estate Lending - Sound Risk Management
Practices. The guidance was issued to address institutions’ increased concentrations of CRE loans and
reinforces and enhances the existing regulations and guidelines for real estate lending and loan portfolio
management. The guidance does not establish specific CRE lending limits; rather, it promotes sound risk
management practices and appropriate levels of capital that will enable institutions to continue to
pursue CRE lending in a safe and sound manner.

                       Material Loss Review of ANB Financial, National Association                Page 22
                       (OIG-09-013)
                        Based on the 2007 OCC Western District FMFIA Annual
                        Certification statement, the results of the 2006 examination, and
                        interviews with OCC officials and examiners, we believe that OCC
                        should have taken formal enforcement action after its 2006
                        examination of the bank when OCC restated its concerns about the
                        bank’s growth, credit risk management, and concentration in CRE
                        loans and downgraded ANB’s CAMELS composite, assets, and
                        earnings ratings.

                        Prompt Corrective Action Used Appropriately

                        The purpose of PCA is to resolve the problems of insured
                        depository institutions at the least possible long-term loss to the
                        deposit insurance fund.21 PCA provides federal banking agencies
                        with the authority to take certain actions when an institution’s
                        capital drops to certain levels. PCA also gives regulators flexibility
                        to discipline institutions based on criteria other than capital to help
                        reduce deposit insurance losses caused by unsafe and unsound
                        practices. For example, OCC’s Enforcement Action Policy allows
                        for the imposing of more severe limitations than a bank’s PCA
                        capital category would otherwise permit or require if it is
                        determined that the bank is in an unsafe or unsound condition or
                        engaging in unsafe or unsound practices.

                        OCC took supervisory action under PCA to reclassify ANB’s capital
                        level during 2007. Specifically, as a result of the February 2007
                        examination and issuance of the formal agreement, OCC
                        designated ANB’s capital level as adequately capitalized even
                        though ANB’s capital level met the definition of well-capitalized.
                        Because it was designated adequately capitalized, ANB was
                        prohibited from accepting or renewing brokered deposits unless it
                        obtained a waiver from FDIC. ANB did request a brokered deposit
                        waiver from FDIC in July 2007 but withdrew the request in
                        December 2007.

                        As ANB’s capital levels fell in 2008, OCC designated the bank as
                        undercapitalized on February 5, 2008, significantly undercapitalized
                        on February 27, 2008, and critically undercapitalized on April 29,


21
     12 U.S.C. § 1831o and 12 C.F.R. § 6.

                        Material Loss Review of ANB Financial, National Association      Page 23
                        (OIG-09-013)
                     2008. We believe OCC appropriately implemented PCA in
                     reclassifying ANB’s capital to these levels.

                     OCC’s Guidance on Brokered Deposits Was General

                     OCC’s Comptroller’s Handbook provides examiners guidance on
                     liquidity risk management and examination procedures to assess a
                     bank’s liquidity condition including the use of wholesale funding
                     sources such as brokered deposits. The examination procedures
                     include determining the bank’s degree of reliance on credit
                     sensitive wholesale funds providers, evaluating the level of risk in
                     wholesale funding activities including reviewing concentrations in
                     funding sources, and determining compliance with requirement that
                     brokered deposits can only be accepted by well-capitalized
                     institutions. The guidance, however, did not provide benchmarks or
                     more specific guidance as to when examiners should start to raise
                     concerns with bank management about the use of brokered
                     deposits and other non-retail deposit funding sources.

                     As discussed above, brokered deposits were used by ANB to fuel
                     its rapid growth and ANB’s liquidity sources became heavily
                     concentrated in brokered deposits, as shown in Chart 2. In 2007,
                     brokered deposits became unavailable to ANB when its capital level
                     was downgraded to adequately capitalized and ANB’s contingency
                     funding plan failed to identify alternative funding sources which left
                     ANB in a weak liquidity position. Prior to ANB’s failure, OCC did
                     identify ANB’s reliance on brokered deposits as an unsafe and
                     unsound practice.

                     Based on the following, we believe OCC should reassess its
                     guidance and examination procedures related to brokered deposits.

                     •   OCC acknowledged that ANB’s reliance on brokered deposits
                         was an unsafe and unsound practice.22
                     •   It has been reported that two other recent bank failures,
                         IndyMac Bank, F.S.B. and Columbian Bank and Trust Co., have



22
  May 7, 2008, memorandum from Special Supervision Division to Senior Deputy Comptroller,
Midsize/Community Bank Supervision. Memorandum details the reasons Special Supervision Division
recommended that OCC appoint the FDIC as receiver of ANB.

                     Material Loss Review of ANB Financial, National Association           Page 24
                     (OIG-09-013)
                           been blamed in part on a high concentration of brokered
                           deposits.23
                       •   Recently issued guidance from FDIC on liquidity risk
                           management recognizes the increased risk of the use of
                           brokered deposits and describes FDIC’s expectations for insured
                           institutions for managing liquidity risk.24

                       After Supervision of ANB Transferred to OCC’s Special Supervision
                       Division, Actions Taken Were Appropriate But Ultimately Unable to
                       Prevent ANB’s Failure

                       In December 2007, OCC’s Western District reviewed a sample of
                       CRE loans that, for the most part, it had not previously reviewed.
                       The review revealed continued deterioration in loan quality and an
                       increase of classified assets to 235 percent of Tier 1 capital and
                       allowance for loan and lease losses. Based on this review, OCC
                       notified ANB in a letter dated December 17, 2007 that the bank’s
                       composite CAMELS rating was downgraded to 5 and supervision of
                       the bank was transferred to the Special Supervision Division. 25 The
                       transfer of supervision to the Special Supervision Division at this
                       time was appropriate as OCC’s An Examiner’s Guide to Problem
                       Bank Identification, Rehabilitation, and Resolution states that
                       supervisory responsibility transfers automatically once a bank is
                       downgraded to a 5.

                       The Special Supervision Division directed the overall supervision of
                       ANB from December 17, 2007, until ANB was closed on May 9,
                       2008. The Special Supervision Division supervisory actions
                       included reviewing and commenting on required CRPs from ANB,
                       working with FDIC and Federal Reserve personnel, and issuing PCA
                       notices to ANB. These actions are detailed in Appendix 4
                       Chronology of Significant Events. We concluded that the Special
                       Supervision Division did what it could, but with the rapidly
                       deteriorating conditions at ANB, there was little that could be done



23
   American Banker, article “Guidance Offered on Brokered Funds” dated August 27, 2008.
24
   FDIC Financial Institution Letter “Liquidity Risk Management” dated August 26, 2008.
25
   The Special Supervision Division of the Mid-Size/Community Bank Supervision division supervises
critical problem banks through rehabilitation or through other resolution processes such as orderly failure
management or the sale, merger, or liquidation of such institutions. The Special Supervision Division is
located at OCC Headquarters.

                       Material Loss Review of ANB Financial, National Association                 Page 25
                       (OIG-09-013)
                        to rehabilitate the bank after the transfer of supervisory
                        responsibility.

                        Other Matter – Lessons-Learned Reviews

                        Following the failure in 1999 of First National Bank of Keystone,
                        OCC developed a plan to include performing a formal lessons-
                        learned review when a bank fails. After Hamilton Bank failed in
                        January 2002, the OCC Hamilton lessons-learned review project
                        team conducted a review and issued its report in July 2002. The
                        Hamilton lessons-learned review report documented several key
                        issues, a description of action that OCC had taken, and
                        recommendations for additional action. In our material loss review
                        report on the Hamilton failure, we concluded that the lessons-
                        learned review process provided OCC useful information to improve
                        its supervisory process.26

                        OCC has not completed a lessons-learned review on ANB. OCC
                        officials informed us that a review was started in September 2008.
                        Current OCC policy does not require a lessons-learned review be
                        performed when a bank fails.

                        As noted with the Hamilton failure, lessons-learned reviews can
                        produce useful information to improve OCC’s supervisory process
                        outside and in advance of material loss reviews by our office. The
                        performance of lessons-learned reviews also represents an
                        important internal control, defined in the Government
                        Accountability Office’s Standards for Internal Control in the Federal
                        Government as the plans, methods, and procedures used to meet
                        missions, goals, and objectives.27 Accordingly, we believe OCC
                        should revisit and formalize in policy a process for conducting
                        lessons-learned reviews of bank failures when conditions warrant.




26
     OIG, Material Loss Review of Hamilton Bank, NA, OIG-03-032 (Dec. 17, 2002).
27
     GAO/AIMD-00-21.3.1 (November 1999).

                        Material Loss Review of ANB Financial, National Association    Page 26
                        (OIG-09-013)
Recommendations
           We recommend that the Comptroller of the Currency do the
           following:

           1. Re-emphasize to examiners that examiners must closely
              investigate an institution’s circumstances and alter its
              supervisory plan if certain conditions exist as specified in OCC’s
              Examiner’s Guide to Problem Bank Identification, Rehabilitation,
              and Resolution.

               Management Response

               OCC plans to leverage the findings of this report and its
               lessons-learned review by communicating them to field staff to
               reinforce its expectations of examiners in the execution of its
               supervisory process. In addition to numerous policies and
               processes currently in place to ensure timely recognition and
               response to increasing risks in banks, including formal
               enforcement action if warranted, OCC provided guidance to
               examiners on assessing commercial real estate portfolios and
               discussed this guidance in April and October conference calls
               with examiners.

               OIG Comment

               OCC’s actions, both taken and planned, meet the intent of our
               recommendation. OCC will need to establish an estimated
               completion date for its planned action to communicate the
               results of our review and its lessons learned review of the ANB
               failure, and record that date in JAMES.

           2. Re-emphasize to examiners that formal enforcement action is
              presumed warranted when certain circumstances specified in
              OCC’s Enforcement Action Policy (PPM 5310-3) exist.
              Examiners should also be directed to document in the
              examination files the reason for not taking formal enforcement
              action if those circumstances do exist.



           Material Loss Review of ANB Financial, National Association    Page 27
           (OIG-09-013)
    Management Response

    OCC plans on sharing the results of this report and its lessons-
    learned review with examiners to emphasize the importance of
    taking formal enforcement action when appropriate and
    consistent with policy and also of documenting the decision.
    OCC refreshed examiner awareness of OCC’s Enforcement
    Action Policy and promoted consistency in the application of the
    policy in three ways: in a written document, through
    discussions at district management meetings, and during an all-
    examiner conference call in October 2008. The central message
    was, “In general, enforcement actions should be taken at an
    early stage, while problems are still manageable and the
    prospects for rehabilitation or, alternatively, sale or merger of
    the institution, are still good.”

    OIG Comment

    OCC’s actions, both taken and planned, meet the intent of our
    recommendation. OCC will need to establish an estimated
    completion date for its planned action to communicate the
    results of our review and its lessons-learned review of the ANB
    failure, and record that date in JAMES.

3. Reassess guidance and examination procedures in the
   Comptroller’s Handbook related to bank use of wholesale
   funding with a focus on heavy reliance on brokered deposits
   and other non-retail deposit funding sources for growth.

    Management Response

    OCC agreed that the guidance and examination procedures in
    the Comptroller’s Handbook should be refreshed with respect to
    wholesale funding, brokered deposits, and other liquidity related
    topics. The Office of the Chief National Bank Examiner has
    made updating this portion of the Handbook a priority. In the
    interim, OCC developed updated guidance, which was
    distributed to all examiners and discussed during an October
    2008 all-examiner conference call.




Material Loss Review of ANB Financial, National Association    Page 28
(OIG-09-013)
    OIG Comment

    OCC’s commitment to update the Comptroller’s Handbook
    meets the intent of our recommendation. OCC will need to
    establish a planned completion date for this action in JAMES.

4. Establish in policy a “lessons-learned” process to assess the
   causes of bank failures and the supervision exercised over the
   institution and to take appropriate action to address any
   significant weaknesses or concerns identified.

    Management Response

    OCC will incorporate “lessons-learned” reviews of failed banks
    or other significant events into the quality assurance activities
    of Mid-size and Community Bank supervision, typically
    enumerated in annual business plans. OCC also noted its intent
    to share the results of its lessons-learned review of the ANB
    failure with examiners in an instructive manner.

    OIG Comment

    OCC’s commitment to incorporate lessons-learned reviews into
    quality assurance activities of mid-size and community bank
    supervision is an important step to meet the intent of our
    recommendation. OCC’s response, however, does not
    specifically state that the commitment will be incorporated in
    policy. We believe it should so that the lessons-learned review
    process is institutionalized. Also, such a process should not be
    limited to mid-size and community banks. Accordingly, while we
    consider this recommendation to be resolved, further action is
    needed for its implementation.




Material Loss Review of ANB Financial, National Association     Page 29
(OIG-09-013)
                               * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5776 or Jeff Dye, Audit Manager, at
(202) 927-0384. Major contributors to this report are listed in
Appendix 7.




Susan L. Barron
Audit Director




Material Loss Review of ANB Financial, National Association   Page 30
(OIG-09-013)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of ANB Financial, National
                        Association, (ANB) in response to our mandate under section 38(k)
                        of the Federal Deposit Insurance Act, as amended.28 This section
                        provides that if a deposit insurance fund incurs a material loss with
                        respect to an insured depository institution, the inspector general
                        for the appropriate federal banking agency is to prepare a report to
                        the agency, which shall

                        •   ascertain why the institution’s problems resulted in a material
                            loss to the insurance fund,
                        •   review the agency’s supervision of the institution, including its
                            implementation of the prompt corrective actions provisions of
                            section 38, and
                        •   make recommendations for preventing any such loss in the
                            future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within 6
                        months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of ANB based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of May 9, 2008, FDIC’s Deposit Insurance Fund had recorded an
                        estimated loss of $214 million.

                        To accomplish our review, we conducted fieldwork at the Office of
                        the Comptroller of the Currency’s (OCC) headquarters in
                        Washington, D.C.; its district office in Denver, Colorado; and its
                        field office in Kansas City, Kansas. We also met with officials of
                        FDIC’s Division of Supervision and Consumer Protection and
                        Division of Resolutions and Receiverships in Dallas, Texas.

                        To assess the adequacy of OCC’s supervision of ANB, we
                        performed interviews and reviews to determine (1) when OCC first
                        identified ANB’s safety and soundness problems, (2) the gravity of
                        the problems, and (3) the supervisory response OCC took to get
                        the bank to correct the problems. We also performed interviews


28
     12 U.S.C. § 1831(k).

                        Material Loss Review of ANB Financial, National Association     Page 31
                        (OIG-09-013)
Appendix 1
Objectives, Scope, and Methodology




and reviews to determine whether OCC (1) might have discovered
problems earlier; (2) identified and reported all the problems; and
(3) issued comprehensive, timely, and effective enforcement
actions that dealt with any unsafe or unsound activities.
Specifically, we did the following:

    •   Based on reviews of all the reports of examinations, we
        determined that ANB’s problems began in 2005. Therefore,
        we determined the scope of our audit would be from 2003,
        two years prior to problems being noted, through 2008. We
        reviewed OCC supervisory files and records for ANB from
        2003 through 2008. We analyzed examination reports,
        supporting workpapers, and related supervisory and
        enforcement correspondence. We performed these analyses
        to gain an understanding of the problems identified, the
        approach and methodology OCC used to assess the bank’s
        condition, and the regulatory action used by OCC to compel
        bank management to address deficient conditions. We did
        not conduct an independent or separate detailed review of
        the external auditor’s work or associated workpapers other
        than those incidentally available through the supervisory
        files.

    •   We interviewed and discussed various aspects of the
        supervision of ANB with OCC officials, examiners, and
        attorneys to obtain their perspective on the bank’s condition
        and the scope of the examinations. We also interviewed
        FDIC officials who were responsible for monitoring ANB for
        federal deposit insurance purposes.

    •   We interviewed FDIC Division of Resolutions and
        Receiverships personnel who were involved in the
        receivership process, which was conducted before and after
        ANB’s closure and appointment of receiver.

    •   Assessed OCC actions based on its internal guidance and
        legislative guidance provided by Federal Deposit Insurance
        Act, 12 U.S.C. § 1820(d).

Our review covered the period from 2003 until ANB’s failure on
May 9, 2008. We conducted our fieldwork from May 2008 through

Material Loss Review of ANB Financial, National Association    Page 32
(OIG-09-013)
Appendix 1
Objectives, Scope, and Methodology




October 2008. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Material Loss Review of ANB Financial, National Association   Page 33
(OIG-09-013)
                       Appendix 2
                       Background




                       ANB History

                       ANB was established in 1994 as Arkansas National Bank, National
                       Association, and renamed ANB Financial, National Association, in
                       2005. ANB was headquartered in Bentonville, Arkansas, and had
                       eight full-service branches in northwestern Arkansas and LPOs in
                       Utah, Wyoming, and Idaho. ANB also had two mortgage offices, in
                       Arkansas and in Texas, and three subsidiaries—ANB Financial
                       Group, LLC, which provided brokerage services, ANB Financial
                       Services, LLC, which was an insurance agency, and ANB Title,
                       LLC, which provided title insurance.

                       The bank was wholly owned by ANB Bancshares, Inc., a one-bank
                       holding company. ANB Bancshares, Inc. was regulated by the
                       Board of Governors of the Federal Reserve System (Federal
                       Reserve), and ANB was regulated by OCC. ANB’s board of
                       directors and employee stock option plan controlled approximately
                       64 percent of the holding company’s common stock and 65
                       percent of the outstanding preferred stock. The bank elected
                       Subchapter S status in 2003.29

                       Appendix 4 contains a chronology of significant events regarding
                       ANB.

                       Types of Examinations Conducted by OCC

                       National banks must receive a full-scope, on-site examination at
                       least once during each 12-month period.30 A full-scope examination
                       is examination activities that are sufficient in scope to assign or
                       confirm a bank’s CAMELS composite and component ratings. It
                       also results in conclusions about a bank’s risk profile, includes on-
                       site supervisory activities, and generally conclude with the issuance
                       of a ROE. OCC generally conducts examinations of specialty areas
                       like IT and compliance activities as part of the full-scope, on-site
                       examination. The IT examination evaluates the overall performance
                       of IT within the institution and the institution’s ability to identify,

29
   A Subchapter S corporation is treated as a pass-through entity, similar to a partnership, for federal
income tax purposes. It is generally not subject to federal income tax at the corporate level. Its taxable
income flows through to its shareholders in proportion to their stock ownership, and the shareholders
generally pay federal income tax on their share of this taxable income.
30
   12 U.S.C. 1820(d).

                       Material Loss Review of ANB Financial, National Association                  Page 34
                       (OIG-09-013)
Appendix 2
Background




measure, monitor and control technology-related risks. The
compliance examination evaluates whether the bank was in
compliance with various laws and regulations such as anti-money
laundering, Office of Foreign Asset Control, and the Bank Secrecy
Act. A targeted examination is any examination that does not fulfill
all the statutory requirements of a full-scope examination.

The OCC may extend the cycle for full-scope examinations to 18
months if the following conditions are satisfied: (1) the bank has
total assets of less than $500 million; (2) the bank is well-
capitalized as defined in 12 C.F.R. 6; (3) at its most recent
examination, the OCC assigned the bank composite and
management ratings of 1 or 2; (4) the bank currently is not subject
to a formal enforcement proceeding or order by the FDIC, OCC, or
Federal Reserve System; and (5) no person acquired control of the
bank during the preceding 12-month period in which a full-scope,
on-site examination would have been required. ANB did not meet
these criteria during the scope of our review and was therefore
examined annually by OCC.

The results of full-scope examinations are used to assign ratings to
the banks. OCC, like other bank regulatory agencies, uses the
Uniform Financial Institutions Rating System, commonly called
CAMELS ratings. A bank’s composite rating under CAMELS
integrates ratings from six component areas: capital adequacy,
asset quality, management, earnings, liquidity, and sensitivity to
market risk. OCC may also assign ratings based on activities other
than full-scope examinations, such as targeted reviews.

A bank assigned a composite rating of 1 is sound in every respect,
generally has components rated 1 or 2, and gives no cause for
supervisory concern. A composite rating of 2 indicates the bank is
fundamentally sound, generally no component is rated more severe
than a 3, and there are no material supervisory concerns. Banks
with a composite rating of 3 exhibit some degree of supervisory
concern in one or more component areas, the deficiencies generally
will not cause a component to be rated more severe than a 4, and
require more than normal supervision, which may include formal or
informal enforcement actions. A composite rating of 4 indicates the
bank exhibits unsafe and unsound practices, problems range from


Material Loss Review of ANB Financial, National Association   Page 35
(OIG-09-013)
                        Appendix 2
                        Background




                        severe to critically deficient, and the problems are not being
                        satisfactorily addressed by management. Banks with a composite
                        rating of 5 exhibit extremely unsafe and unsound practices or
                        conditions, exhibit a critically deficient performance, and are of the
                        greatest supervisory concern.

                        Types of Enforcement Actions Available to OCC

                        OCC uses formal and informal enforcement actions in response to
                        violations of law, rules, regulations, final agency orders, and/or
                        unsafe and unsound practices or conditions.

                        Informal Enforcement Actions

                        When a bank’s overall condition is sound, but it is necessary to
                        obtain written commitments from a bank’s board of directors to
                        ensure that identified problems and weaknesses will be corrected,
                        OCC may use informal enforcement actions. Informal enforcement
                        actions provide a bank with more explicit guidance and direction
                        than a ROE normally contains, but are generally not legally binding.
                        Informal enforcement actions include commitment letters,
                        memoranda of understanding, and safety and soundness plans.

                        Formal Enforcement Actions

                        Unlike most informal actions, formal enforcement actions are
                        authorized by statute, are generally more severe, and are public.
                        Formal actions are also enforceable through the assessment of civil
                        money penalties and, with the exception of formal agreements,
                        through the federal court system. Formal enforcement actions
                        available to OCC include consent orders, cease and desist orders,
                        formal written agreements, and PCA directives.

                        OCC Enforcement Guidelines31

                        Determining the appropriate enforcement action, whether informal
                        or formal, depends on the following:

                        •   the overall condition of the bank;

31
     OCC Policies and Procedures Manual (PPM) 5310-3 (REV),

                        Material Loss Review of ANB Financial, National Association     Page 36
                        (OIG-09-013)
Appendix 2
Background




•   the nature, extent, and severity of the bank’s problems and
    weaknesses;

•   the commitment and ability of bank management to correct the
    identified deficiencies; and

•   the existence of previously identified but unaddressed problems
    or weaknesses.




Material Loss Review of ANB Financial, National Association   Page 37
(OIG-09-013)
                    Appendix 3
                    Glossary




Adversely Classified Assets         Assets rated as substandard, doubtful, and loss.
                                    Substandard assets are inadequately protected by the
                                    current worth and paying capacity of the obligor or of
                                    the collateral pledged, if any. A doubtful asset has all
                                    the weaknesses of a substandard asset with the
                                    added characteristic that the weaknesses make
                                    collection or liquidation in full questionable and
                                    improbable. A loss asset is considered uncollectible
                                    and of such little value that continuation as a bankable
                                    asset is not warranted.

Allowance for Loan and              A valuation reserve established and maintained by
Lease Losses                        charges against a bank’s operating income. As a
                                    valuation reserve, it is an estimate of uncollectible
                                    amounts that is used to reduce the book value of
                                    loans and leases to the amount that is expected to be
                                    collected. Valuation allowances established to absorb
                                    unidentified losses inherent in an institution’s overall
                                    loan and lease portfolio are referred to as the
                                    allowance for loan and lease losses.

Brokered Deposits                   Brokered deposits include any deposit that is obtained,
                                    directly or indirectly, from a deposit broker. When a
                                    bank is less than well-capitalized according to the
                                    “prompt corrective action” provisions of 12 C.F.R. 6,
                                    the term “brokered deposits” may apply to any
                                    deposits it solicits by offering rates of interest that are
                                    significantly higher than the rates offered by other
                                    insured depository institutions in its normal market
                                    area. Under 12 U.S.C. 1831f and 12 C.F.R. 337.6,
                                    the use of brokered deposits is limited to well-
                                    capitalized insured depository institutions and, with a
                                    waiver from the FDIC, to adequately capitalized
                                    institutions. Undercapitalized institutions are not
                                    permitted to accept brokered deposits

Call Reports                        The contents of call reports include consolidated
                                    detailed financial information on assets, liabilities,
                                    capital, and loans to executive officers, as well as
                                    income, expenses, and changes in capital accounts.



                    Material Loss Review of ANB Financial, National Association         Page 38
                    (OIG-09-013)
                     Appendix 3
                     Glossary




CAMELS                               CAMELS is an acronym for the performance rating
                                     components: Capital adequacy, Asset quality,
                                     Management administration, Earnings, Liquidity, and
                                     Sensitivity to market risk. Numerical values range from
                                     1 to 5, with 1 being the highest rating and 5
                                     representing the worst-rated banks.

Capital Restoration Plan             A capital restoration plan is submitted to the
                                     appropriate federal banking agency by any
                                     undercapitalized insured depository institution. A CRP
                                     specifies the steps the insured depository institution
                                     will take to become adequately capitalized, the levels
                                     of capital to be attained during each year in which the
                                     plan will be in effect, how the institution will comply
                                     with the statutory restrictions against asset growth
                                     and acquisitions, the types and levels of activities in
                                     which the institution will engage, and any other
                                     information that the federal banking agency may
                                     require.

Concentration Risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers. If loans are
                                     more broadly distributed, weaknesses confined to one
                                     or a small number of sectors, areas, or borrowers
                                     would pose a smaller risk to the institution’s financial
                                     health.

Criticized Assets                    Criticized assets include assets rated as special
                                     mention. Special mention assets have potential
                                     weaknesses that deserve management's close
                                     attention.

Federal Home Loan Bank               The Federal Home Loan Bank (FHLB) System was
                                     established by Congress in 1932. FHLBs are
                                     government-sponsored enterprises chartered by
                                     Congress. Their purpose is to support residential
                                     mortgage lending and community investment at the
                                     local level by providing primary liquidity loans to its
                                     more than 8,000 member financial institutions


                     Material Loss Review of ANB Financial, National Association         Page 39
                     (OIG-09-013)
                   Appendix 3
                   Glossary




                                   (primarily banks and thrift institutions). Each member
                                   is a shareholder in its regional FHLB, which is a
                                   privately capitalized, independently managed
                                   cooperative. The bank’s Office of Finance is its
                                   centralized debt issuance facility. The funds obtained
                                   through debt issuance are used to support FHLB
                                   activities.

Formal Agreement                   A formal agreement is a type of formal enforcement
                                   action authorized by statute. Formal agreements are
                                   generally more severe than informal actions and are
                                   disclosed to the public. Formal actions are also
                                   enforceable through the assessment of civil money
                                   penalties.

Interest Carry                     The portion of a construction line of credit that is set
                                   aside to advance interest expense until the
                                   construction project is completed. Interest carry is
                                   considered part of the cost of the construction project
                                   until it is completed.

Loan Presentation Memo             Loan presentation memos are approval memos that
                                   loan officers prepare for a loan committee (mainly
                                   comprised of the president and/or senior leaders of the
                                   bank) when a loan is initially approved, extended, or
                                   renewed. There are no required elements of a good
                                   approval memo but an informative loan approval
                                   memo would generally contain the purpose of the
                                   credit, primary and secondary source of repayment
                                   (collateral generally), terms of the note, a description
                                   of the project, strength and weaknesses of the credit,
                                   and importantly, an analysis of the project/guarantor
                                   and when do they expect repayment.

Loan Production Offices            Banking offices that take loan applications and arrange
                                   financing for corporations and small businesses, but
                                   they do not accept deposits. Loan applications are
                                   subject to approval by the lending institution.

Matter Requiring Attention         A bank practice noted during an examination that
                                   deviates from sound governance, internal control, and


                   Material Loss Review of ANB Financial, National Association       Page 40
                   (OIG-09-013)
                    Appendix 3
                    Glossary




                                    risk management principles, which may adversely
                                    impact the bank’s earnings or capital, risk profile, or
                                    reputation, if not addressed; or result in substantive
                                    noncompliance with laws and regulations, internal
                                    policies or processes, OCC supervisory guidance, or
                                    conditions imposed in writing in connection with the
                                    approval of any application or other request by a bank.
                                    A matter requiring attention is not an enforcement
                                    action.

Prompt Corrective Action            Prompt Corrective Action is a framework of
                                    supervisory actions, set forth in 12 U.S.C. §1831o,
                                    for insured banks that are not adequately capitalized.
                                    It was intended to ensure that action is taken when an
                                    institution becomes financially troubled in order to
                                    minimize resulting losses. These actions become
                                    increasingly severe as a bank falls into lower capital
                                    categories. The capital categories are well-capitalized,
                                    adequately capitalized, undercapitalized, significantly
                                    undercapitalized, and critically undercapitalized.

Tier 1 Capital                      Tier 1 capital consists of common shareholders equity,
                                    perpetual preferred shareholders equity with
                                    noncumulative dividends, retained earnings, and
                                    minority interests in the equity accounts of
                                    consolidated subsidiaries.

Well-Capitalized                    An insured depository institution is well-capitalized if it
                                    significantly exceeds the required minimum level for
                                    each relevant capital measure.

Wholesale Funding                   Wholesale funding sources include federal funds,
                                    public funds, Federal Home Loan Bank advances, the
                                    Federal Reserve's primary credit program, foreign
                                    deposits, brokered deposits, and deposits obtained
                                    through the Internet or certificate of deposit listing
                                    services.




                    Material Loss Review of ANB Financial, National Association         Page 41
                    (OIG-09-013)
                   Appendix 4
                   Chronology of Significant Events




The following chronology describes significant events in the history of ANB Financial,
National Association, including examinations conducted and enforcement actions
taken by the Office of the Comptroller of the Currency (OCC).

6/1/1994     Institution is established under original name, Arkansas National Bank.

11/1994     OCC performs a safety and soundness exam. The exam resulted in
            composite and CAMEL ratings of 2/12242.

8/1995       OCC performs a safety and soundness exam. The exam resulted in
             composite and CAMEL ratings of 2/22233.

2/20/1996 Arkansas National Bancshares, Inc., is established as the holding
          company for National Bank of Arkansas, National Association.

9/1996       OCC performs a safety and soundness exam. The exam resulted in
             composite and CAMEL ratings of 2/22222.

11/1997     OCC performs a safety and soundness exam. The exam resulted in
            composite and CAMELS ratings of 2/222323.

12/1998        OCC performs a safety and soundness exam. The exam resulted in
             composite and CAMELS ratings of 2/222323.

10/18/1999 OCC performs a safety and soundness exam. The exam resulted in
           composite and CAMELS ratings of 3/223333. The bank is rated a 3 due
           to high interest rate and liquidity risk, ineffective board oversight,
           inadequate interest rate measurement tools, and weaknesses in risk
           management systems. Problems noted were corrected by the next
           examination.

12/28/2000 OCC performs a full-scope exam. The exam resulted in composite and
           CAMELS ratings of 2/222232.

1/7/2002    OCC performs a full-scope exam. The exam resulted in composite and
            CAMELS ratings of 2/221222.

1/2003       The bank elects to be a Sub-Chapter S Corporation.




                   Material Loss Review of ANB Financial, National Association   Page 42
                   (OIG-09-013)
                  Appendix 4
                  Chronology of Significant Events




2/24/2003 OCC performs a full-scope exam. The exam resulted in composite and
          CAMELS ratings of 2/221121.

1/5/2004    OCC performs a full-scope exam. The exam resulted in composite and
            CAMELS ratings of 1/211121.

1/2005      The bank opens a loan production office in St. George, Utah.

1/17/2005 Arkansas National Bancshares, Inc is renamed ANB Bancshares, Inc.

1/26/2005 The bank changes its name to ANB Financial, National Association (ANB).

3/9/2005    OCC performs a full-scope exam. The exam resulted in composite and
            CAMELS ratings of 1/212121.

6/14/2005 OCC Western District adds ANB to its watch List because of concern
          over ANB’s rapid growth.

2/1/2006    OCC performs a full-scope exam. The exam resulted in composite and
            CAMELS ratings of 2/222221.

5/1/2006    ANB opens a loan production office in Jackson, Wyoming.

12/2006     A new Portfolio Manager/Examiner-In-Charge for ANB transitions into the
            position in preparation for the examination to be conducted in 2007. The
            prior Portfolio Manager/Examiner-In-Charge had been in the position since
            the examination conducted in 2003.

2/23/2007 OCC performs a full-scope exam. The exam resulted in composite and
          CAMELS ratings of 3/233221.

4/26/2007 OCC designates the bank as in “troubled condition” based on the results
          of the 2/23/07 exam.

5/2007      ANB opens a loan production office in Idaho Falls, Idaho.

5/9/2007    The OCC Western District Supervisory Review Committee decides to
            initiate a formal agreement to address ANB’s issues.

6/25/2007 OCC enters into a formal agreement with ANB that requires ANB to
          achieve increased total risk-based capital thresholds to 10.75 percent of


                  Material Loss Review of ANB Financial, National Association   Page 43
                  (OIG-09-013)
                   Appendix 4
                   Chronology of Significant Events




             risk-weighted assets in September 2007 and 11 percent of risk-weighted
             assets in December 2007. The formal agreement also addresses strategic
             planning, credit risk management and concentration risk.

7/5/2007     The ANB board approves payment of dividends. The payment complies
             with the formal agreement between ANB and OCC which stated a
             dividend payment could not exceed 42 percent of the bank’s earnings.

7/26/2007 FDIC received a brokered deposit waiver request from ANB that would
          allow the bank to accept new or renew brokered deposits.

9/24/2007 The Dallas Federal Home Loan Bank (FHLB) notifies ANB that it is
          restricting ANB’s access to FHLB’s credit products and services because
          of the bank’s condition, increasing nonperforming loan levels, and high
          concentrations in softening markets.

10/1/2007 OCC conducts an on-site exam to assess ANB’s compliance with the
          formal agreement. OCC expands the review to a full-scope exam as a
          result of finding a significant increase in the bank’s credit risk. The exam
          resulted in ANB receiving composite and CAMELS ratings of 4/344342.

10/4/2007 The ANB board approves a dividend to the shareholders for $5.6 million,
          which is promptly paid. The dividend initially creates a capital shortfall for
          the bank when its increased loan loss provisions decreases its earnings.
          ANB’s holding company injects $6.5 million into ANB to achieve the
          capital minimum requirement.

10/25/2007 OCC requires ANB to hire an external loan review consultant because of
           concerns about the bank’s asset quality.

12/2007      OCC, along with FDIC, reviews a sample of commercial real estate loans.
             The review reveals continued deterioration in loan quality and an increase
             of classified assets.

12/13/2007 Supervision of ANB is transferred within OCC to the Special Supervision
           Division at OCC Headquarters due to the serious problems that developed
           at ANB.

12/17/2007 OCC notifies ANB by letter, that its composite CAMELS rating has been
           downgraded to a 5 and that OCC’s Special Supervision Division is now
           the bank’s supervisory office. The letter also directs ANB’s board to


                   Material Loss Review of ANB Financial, National Association    Page 44
                   (OIG-09-013)
                   Appendix 4
                   Chronology of Significant Events




            develop a preliminary capital plan as well as a contingency plan to sell,
            merge, or liquidate the bank.

12/19/2007 ANB withdraws its request to FDIC for the brokered deposit waiver.

12/31/2007 ANB submits an unacceptable capital and contingency plan to OCC.

1/28/2008 To gain a better understanding of ANB’s capital needs, OCC and FDIC
          planned a targeted exam of ANB that consists of validation of the
          external loan review results to date.

1/29/2008 ANB’s holding company, ANB Bancshares Inc., and the Board of
          Governors of the Federal Reserve System (Federal Reserve) enter into a
          formal agreement. The agreement requires the holding company to:
          (1)submit an acceptable written consolidated capital plan; (2) submit an
          acceptable written plan to service its outstanding debt and other
          obligations without incurring additional debt; (3) not incur, increase, or
          guarantee any debt, without prior approval; (4) not take dividends from
          ANB or declare or pay any dividends without prior approval; (5) not
          increase any salaries, bonuses, or directors’ fees to any directors or
          executive officers without prior approval; (6) provide notification of in the
          appointment of new directors and the hiring of officers prior to hiring; and
          (7) submit acceptable written plans.

1/30/2008 ANB files its initial year-end 2007 call report, which reports ANB as
          undercapitalized for Prompt Corrective Action (PCA) purposes.

2/5/2008    OCC issues a PCA notice, categorizing the bank as undercapitalized, due
            to its Tier 1 capital to adjusted total assets of 4.66 percent. The bank is
            required to submit a capital restoration plan (CRP) by March 6, 2008.

2/22/2008 ANB updates its allowance for loan and lease losses and capital analysis.

2/27/2008 OCC, FDIC, and the Federal Reserve meet with ANB’s board of directors
          and OCC delivers a second PCA notice categorizing the bank as
          significantly undercapitalized. Its Tier 1 capital ration was now 2.5
          percent. The bank is informed that it needs to restore capital and that the
          FDIC’s Division of Resolutions and Receiverships personnel will be on-site
          to put together a bid package for potential purchasers of ANB.




                   Material Loss Review of ANB Financial, National Association    Page 45
                   (OIG-09-013)
                   Appendix 4
                   Chronology of Significant Events




3/6/2008     ANB submits a CRP and the bank engages an institutional brokerage and
             investment banking firm to market the bank.

3/14/2008 ANB submits a supplement to the CRP proposing the sale of ANB in its
          entirety through an investment bank on or before May 5, 2008. The CRP
          notes that ANB has received two expressions of interest in purchasing
          ANB’s branches in northwestern Arkansas, and ANB plans to move
          forward with those proposals.

3/20/2008 OCC informs ANB that the CRP is unacceptable because the CRP lacked
          detailed information about the bank’s proposals, lacked financial analyses
          of the proposals, lacked information about the risks to the bank, and
          lacked the required guarantee from ANB’s holding company.

4/25/2008 ANB becomes critically undercapitalized (Tangible equity capital as a
          percentage of assets was 1.865 percent).

4/29/2008 OCC notifies ANB that its tangible equity ratio puts it in the critically
          undercapitalized category for PCA purposes.

4/30/2008 ANB files a second amendment to the year-end 2007 call report at the
          request of its external auditor. The external auditor identifies significant
          allowance for loan and lease losses provisions recognized in 2008 that
          should have been recognized in 2007.

5/1/2008     After failing to find a buyer or investor, ANB develops and submits a
             partial divestiture plan in order to inject a portion of the needed capital
             into ANB. The plan, among other things, proposes the sale of eight
             branches, most of the associated performing loans, and most of ANB’s
             core retail deposits. OCC considers the plan unacceptable because it did
             not meet minimum CRP requirements, was not based on realistic
             assumptions, was unlikely to succeed in restoring capital, would likely
             increase the risks to the bank, and failed to contain an appropriate
             guarantee by ANB’s holding company.

5/2/2008     ANB’s earnings and capital continues to decline steadily. However, ANB’s
             leverage and tangible equity ratios increase to 2.02 percent, shifting ANB
             back to the significantly undercapitalized category.

5/9/2008     OCC closes the bank and appoints FDIC as receiver.



                   Material Loss Review of ANB Financial, National Association     Page 46
                   (OIG-09-013)
                 Appendix 4
                 Chronology of Significant Events




5/9/2008   FDIC approves the assumption of ANB’s insured deposits by Pulaski Bank
           and Trust Company, Little Rock, Arkansas.




                 Material Loss Review of ANB Financial, National Association   Page 47
                 (OIG-09-013)
                 Appendix 5
                 OCC ANB Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters requiring                     Formal
examination   CAMELS           (in   attention, other recommended actions, and other issues                 enforcement
started       rating     millions)   cited in Reports of Examination 2004 – 2007                            action
1/5/2004      1/211121      $498     Matters requiring ANB Financial, National Association (ANB)            None
                                     board attention
                                     •   None identified
                                     Other recommended actions made to ANB
                                     •   Improve the risk assessment process by identifying threats
                                         to individual information systems and ranking systems by
                                         overall risk.
                                     •   Ensure the information security risk assessment includes a
                                         formal process for identifying threats, vulnerabilities, and
                                         controls in new information technology (IT) initiatives prior
                                         to implementation.


3/9/2005      1/212121      $631     Matters requiring ANB board attention                                  None
                                     •   Strengthen internal controls and oversight to ensure
                                         adherence to board approved policies and prevent violations
                                         of federal regulations (refers to a violation of 12 C.F.R. §34
                                         which requires an appraisal for all real estate-related
                                         financial transactions where transaction value if $250,000
                                         or more).
                                     •   Ensure that adequate credit administration and IT policies
                                         and practices remain in place to minimize potential risk
                                         during times of growth.
                                     Other recommended actions made to ANB
                                     •   Form an independent audit committee to conform to the
                                         requirements of 12 C.F.R. §363, which requires depository
                                         institutions establish an audit committee.
                                     •   Ensure controls are in place to ensure certain practices and
                                         credit administration issues are avoided in the future.
                                     •   Adjust the security risk assessment in a timely manner as
                                         changes are made to the bank’s systems or environment.
                                     •   Use the security risk assessment to establish the scope of
                                         the IT audit.
                                     •   Establish priorities for addressing outstanding IT issues and
                                         new initiatives, and provide additional staffing if necessary.
                                     Other issues
                                     •   While liquidity is satisfactory, liquidity risk remains high and
                                         is increasing due to the aggressive asset growth and a
                                         greater reliance on wholesale funding sources.
                                     •   ANB’s risk profile is increasing in 5 of 7 risk categories.




                 Material Loss Review of ANB Financial, National Association                                       Page 48
                 (OIG-09-013)
                       Appendix 5
                       OCC ANB Examinations and Enforcement Actions




      Date                      Assets     Significant safety and soundness matters requiring                   Formal
      examination   CAMELS           (in   attention, other recommended actions, and other issues               enforcement
      started       rating     millions)   cited in Reports of Examination 2004 – 2007                          action
      2/1/2006      2/222221      $966     Matters requiring ANB board attention                                None
                                           •   None identified
                                           Other recommended actions made to ANB
                                           •   Expand the loan sample size when specific credit
                                               administration weaknesses or noncompliance with policy
                                               are noted to determine the overall depth, severity, and
                                               impact on credit quality. The loan review report should
                                               identify the cause of the weakness and document the
                                               corrective action implemented in response, with follow-up
                                               testing to ensure compliance.
                                           •   Ensure that individual account officers are proactive in the
                                               early and accurate risk rating of loans and establish
                                               tolerance levels for inaccuracy as verified by the
                                               independent reviews performed by the Credit Risk
                                               Department.
                                           •   Implement procedures to reduce the high level of credit and
                                               collateral documentation exceptions as noted by the
                                               independent loan review, particularly at the St. George,
                                               Utah location. In addition, enhance the tracking report by
                                               segregating documentation exceptions by type and
                                               severity.
                                           •   Strengthen the compliance audit function by performing an
                                               interim follow-up audit on previous violations to ensure
                                               implementation of corrective action. The follow-up audit
                                               should be documented with results reported to the board
                                               on a timely basis.
                                           •   Revise customer identification documentation policy to
                                               ensure compliance with USA Patriot Act.
                                           •   Ensure dividends are paid no more frequently than once a
                                               quarter (refers to violation of 12 U.S.C.§60.32
                                           Other issues
                                           •   ANB’s risk profile remains increasing in 5 of 8 risk
                                               categories. (1 risk category added since last exam).
                                           •   Earnings retention has not been sufficient to maintain
                                               adequate capital levels. The need for capital injections in
                                               2005 and plans for additional capital in 2006 reflect the
                                               inability of current income to directly support the capital
                                               base.
                                           •   Increased risk is evident by the significant concentrations in
                                               land development, construction, and raw land loans.


32
   The directors of any national banking association may, quarterly, semiannually or annually, declare a
dividend.

                       Material Loss Review of ANB Financial, National Association                                     Page 49
                       (OIG-09-013)
                 Appendix 5
                 OCC ANB Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters requiring                    Formal
examination   CAMELS           (in   attention, other recommended actions, and other issues                enforcement
started       rating     millions)   cited in Reports of Examination 2004 – 2007                           action
                                     •   Auditor’s Note: No matters requiring ANB board attention
                                         reported in ROE though earnings, asset quality and the
                                         composite rating were all downgraded.


2/23/2007     3/233221    $1,646     Matters requiring ANB board attention                                 Formal
                                     •   Hire a senior loan officer to ensure improvements are made        agreement
                                         to credit risk systems and to properly administer the higher      issued
                                         level of problem assets.                                          6/25/2007
                                     •   Ensure that all underwriting and credit administration
                                         practices are commensurate with the level of risk in the
                                         loan portfolio. Specifically, require expanded loan
                                         presentations and analysis and quarterly reports to senior
                                         management and the loan committee on project status.
                                     •   Enhance the independence of the real estate appraisal
                                         ordering and review process by clearly separating it from
                                         the loan approval process. The individual granting the loan
                                         request should not have the responsibility for reviewing the
                                         appraisals and evaluations.
                                     •   Enhance the bank’s concentration management practices
                                         and policy. Ensure ongoing evaluation of commercial real
                                         estate concentrations in submarkets of each of the bank’s
                                         loan production offices, formalize support for established
                                         concentration limits that include a synopsis of
                                         management’s market analysis as part of the concentration
                                         report provided to the board, aggregate the results of stress
                                         testing individual borrowers into the concentration risk
                                         summary report and address underwriting limitations within
                                         the loan policy when concentrations approach or exceed
                                         limits established by the board.
                                     •   Adopt and implement a strategic plan that is commensurate
                                         with the bank’s risk profile and future growth plans for all
                                         areas of the bank covering at least a 3- year period.
                                     Other recommendations made to ANB
                                     •   Monitor the redevelopment of its internet banking
                                         application software and ensure that appropriate security is
                                         built into the application prior to releasing it to the public.
                                         Validation of the security built into the application should
                                         be performed by a qualified independent third party that
                                         will test security of the application and database and inter-
                                         functionality of the application, database, and multi-factor
                                         authentication.
                                     Other Issues
                                     •   ANB is designated as in “troubled condition” which means



                 Material Loss Review of ANB Financial, National Association                                    Page 50
                 (OIG-09-013)
                 Appendix 5
                 OCC ANB Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters requiring                 Formal
examination   CAMELS           (in   attention, other recommended actions, and other issues             enforcement
started       rating     millions)   cited in Reports of Examination 2004 – 2007                        action
                                         the bank must notify the Office of the Comptroller of the
                                         Currency before adding or replacing a member of the board,
                                         and employing or changing the duties and responsibilities of
                                         any senior executive officer.


 10/1/2007    4/344342   $1,944      Matters requiring ANB board attention                              Formal
                          As of      •    Develop, ensure, and adhere to a written program              agreement
                         6/30/07          designed to improve and strengthen problem loan               issued
                                          collection efforts. Problem loan workout plans must           6/25/07
                                          incorporate specific workout objectives, target dates, and
                                          performance criteria to measure progress toward problem
                                          resolution and to reinforce accountability in the workout
                                          process.
                                     •    Develop, implement, and ensure adherence to a written
                                          program designed to improve and strengthen the loan risk
                                          rating function.
                                     •    Develop and adopt a comprehensive loan review program
                                          that ensures prompt corrective action of identified credit
                                          system weaknesses and accurate risk rating of loans.
                                     •    Develop, implement, and ensure strong lending controls
                                          that conform to the bank’s lending policy and approval
                                          process. Also, hold loan officers accountable for
                                          complying with loan approval requirements.
                                     •    Establish a loan workout function for the purpose of
                                          restoring and reclaiming classified assets and ensure
                                          prompt intervention in problem loans by qualified
                                          personnel. Also, identify and employ a qualified officer
                                          with sufficient staff to manage the loan workout function.
                                     •    Ensure sufficient liquidity to sustain the bank’s current
                                          operations and to withstand any unanticipated or
                                          extraordinary demand against its funding base. Also,
                                          develop a long-term business plan that focuses on
                                          diversification of funding sources.
                                     •    Develop and adhere to documented policies and
                                          procedures that sufficiently address regulatory and
                                          generally accepted accounting principles requirements and
                                          limit the bank’s risk exposure from mortgage banking
                                          activities to an acceptable level.
                                     Other recommended actions made to ANB
                                     •    Improve support, documented analysis, and policy
                                          guidance for stronger concentration risk management
                                          systems and greater risk controls.




                 Material Loss Review of ANB Financial, National Association                                 Page 51
                 (OIG-09-013)
                   Appendix 5
                   OCC ANB Examinations and Enforcement Actions




Date                        Assets     Significant safety and soundness matters requiring       Formal
examination    CAMELS            (in   attention, other recommended actions, and other issues   enforcement
started        rating      millions)   cited in Reports of Examination 2004 – 2007              action
                                       Other Issues
                                       •     All future dividends require prior OCC approval.
Source: OIG analysis from OCC ROEs on ANB.




                   Material Loss Review of ANB Financial, National Association                      Page 52
                   (OIG-09-013)
Appendix 6
Management Response




Material Loss Review of ANB Financial, National Association   Page 53
(OIG-09-013)
Appendix 6
Management Response




Material Loss Review of ANB Financial, National Association   Page 54
(OIG-09-013)
Appendix 7
Major Contributors to This Report




Susan Barron, Director, Banking Audits
Jeffrey Dye, Audit Manager
Jaideep Mathai, Audit Manager
Amnoiphorn Samson, Program Analyst
Michelle Littlejohn, Program Analyst
Regina Morrison, Auditor
Alicia Bruce, Auditor
Delores Dabney, Referencer




Material Loss Review of ANB Financial, National Association   Page 55
(OIG-09-013)
Appendix 8
Report Distribution




Department of the Treasury

    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Chairman

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

U.S. Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of ANB Financial, National Association   Page 56
(OIG-09-013)
